OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation



SURVEY OF THE MILLENNIUM
CHALLENGE CORPORATION’S
OVERSIGHT OF VALUE ADDED
TAXES DUE FROM COMPACT
COUNTRIES
AUDIT REPORT NO. M-000-10-003-S
September 28, 2010


WASHINGTON, DC
       Office of Inspector General
       for the Millennium Challenge Corporation


September 28, 2010

Victoria B. Wassmer
Vice President
Department of Administration and Finance
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005-2221

Dear Ms. Wassmer:


This letter transmits the Office of the Inspector General’s final report on the Survey of the
Millennium Challenge Corporation’s Oversight of Value Added Taxes Due from Compact
Countries. In finalizing the report, we considered your written comments to our draft report and
included those comments in their entirety in Appendix I of this report.

The report contains four recommendations to strengthen MCC’s oversight of value added taxes
due from compact countries. We consider that management decisions have been reached for
Recommendations No. 1, 3 and 4 but final action will not be reached until MCC provides further
documentation to support its statements. Although MCC agrees with Recommendation No. 2,
no management decision has been reached.

I appreciate the cooperation and courtesy extended to my staff during this survey.


Sincerely,


Alvin A. Brown /s/
Assistant Inspector General/MCC

Attachment:




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
           Survey of the Millennium Challenge Corporation’s Oversight of
                 Value-Added Taxes Due from Compact Countries


Background

According to the Compacts, all Millennium Challenge Corporation (MCC) funds are exempt from
taxation by host governments. If the government of the host country collects the taxes for any
reason, MCC must seek reimbursement of such taxes and require the government to refund the
collected amounts within 30 days. MCC includes “no taxation” clauses in all bilateral assistance
agreements with host countries.

All recipient countries that have signed bilateral assistance agreement with MCC have value-
added tax (VAT) systems. In some countries, MCC has established supplemental tax
agreements to cover country-specific taxes, including corporate and income taxes. Although
bilateral framework agreements are an important tool for establishing the tax-exempt status of
U.S. Government assistance, many Millennium Challenge Accounts (MCAs) are required to pay
VAT and file for reimbursement with the host government. The practice of first paying VAT and
then periodically requesting reimbursement raises the risk of unreimbursed VAT payments.

As of fiscal year (FY) 2009, MCC had obligated an estimated $6.5 billion and disbursed $1
billion in Compact and 609(g) funds to 20 countries. The VAT rates in Compact countries range
from 12.5 percent to 25 percent. Depending on the country, the loss in unreimbursed VAT
payments could be millions of dollars annually.

To deal with tax exemption of assistance funds, MCC issued a “Policy on Tax Exemption of
MCC Assistance” in 2009. The policy states that all MCC assistance shall be exempt from
taxation by the recipient governments. To implement the exemption of assistance funds and
deal with VAT, a country may employ one or more of the following mechanisms outlined in the
MCC policy document:

       1. The host government issues an “exemption certificate” that allows the holder to be
          exempt from VAT.
       2. The recipient country government will provide its national funds for payment of VAT.
       3. The host government will collect VAT and reimburse it on request.

The survey focused on the prevailing practices of MCC and MCAs in relation to the objective
below, and also examined MCC’s ability to collect and centrally maintain VAT payment and
collection data.

Survey Objective

The objective of this survey was to determine whether MCC has a process in place to follow up
and collect VAT from foreign governments that receive MCC funds.

Survey Findings

MCC did not have (1) an adequate oversight process in place to follow up on VAT payments
and reimbursements or (2) adequate standard procedures to account for VAT transactions.
                                               3
More information on the results of the survey is described below.

MCC Did Not Have Adequate Oversight of
VAT Process

According to Office of Management and Budget and Government Accountability Office
guidance, an internal control is an integral component of an organization’s management that
provides reasonable assurance that the agency is achieving effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and regulations.
MCC has a fiduciary responsibility to ensure that its funds are spent appropriately and that it has
financial controls in place to improve its oversight of MCAs. 1

However, the survey found that MCC (1) did not have a process in place to monitor VAT
payments and collections; (2) could not determine the total amount of VAT reimbursements that
were owed to MCAs; and (3) did not issue formal guidance to MCAs to record, track, and report
VAT transactions in their Fiscal Accountability Statements.

        Recommendation No. 1: We recommend that the Millennium Challenge
        Corporation develop and implement a centralized system to monitor value-
        added tax and incorporate it into its policies and procedures.

        Recommendation No. 2: We recommend that the Millennium Challenge
        Corporation establish a system for collecting value-added tax data on
        payments, reimbursements, and outstanding balances.


MCC Did Not Have a Mechanism to Identify
Balances Due From Host Governments

The statute establishing MCC requires that each Compact include a plan to ensure fiscal
accountability for the use of Compact funds to accomplish Compact objectives. 2 The “Policy on
Tax Exemption of MCC Assistance” 3 provided Compact countries with the following three
options for VAT collection and reimbursements.

1. Exemption Certificate: The host government issues a certificate allowing the Accountable
   Entity to be exempt from VAT.

According to MCC:

    •   Fifteen compact countries use the exemption certificate mechanism.
    •   Of these 15 countries, VAT balances are due only from Morocco.

According to the information obtained from MCA auditors:

    •   MCA Cape Verde, MCA Ghana, MCA Lesotho, and MCA Mongolia had VAT balances
        due to them from their host governments

1
  GAO/AIMD-00-21.31, Standards for Internal Control in the Federal Government (November 1999); OMB
Circular A-127, Financial Management Systems (revised January 9, 2009).
2
  Title VI—Millennium Challenge Act of 2003, as amended, Sec. 609 (b) (1) (G).
3
  Millennium Challenge Corporation, “Policy on Tax Exemption of MCC Assistance,” OGC-2009-1.1
(March 13, 2009).
                                                 4
2. Government Account (Dual Invoicing Mechanism): MCA pays for the cost of purchased
   goods or services using MCC assistance funds and a portion of taxes from the national
   funds of the host government.

According to MCC:

   •   MCA El Salvador and MCA Georgia use this mechanism.
   •   The mechanism operates smoothly.

The Office of Inspector General (OIG) raised the following concerns:

   •   VAT transactions are not part of MCA financial management system.
   •   What internal controls are built into the duel invoicing mechanism?
   •   What monitoring process is in place?

3. Program Reimbursement Mechanism: The government of a country may collect VAT
   imposed on MCC assistance and reimburse VAT to the accountable entity from its national
   funds.

According to MCC:

   •   MCA Namibia and MCA Vanuatu are the only two countries using this reimbursement
       mechanism.
   •   Namibia is current on its reimbursement and Vanuatu has a small balance.

According to the information obtained from MCA auditors, as of December 31, 2009:

   •   Namibia had an outstanding balance of $117,705.
   •   Vanuatu had a balance of $1,565.

       Recommendation No. 3: We recommend that the Millennium Challenge
       Corporation revise guidance to Millennium Challenge Accounts to
       establish comprehensive policies and procedures related to Millennium
       Challenge Accounts’ value-added tax transactions and establish internal
       controls in accordance with best practices.


MCAs Are Not Reporting VAT Transactions In
Their Fund Accountability Statements

The Compact Agreements require Accountable Entities to maintain records of all transactions
related to MCC funds provided to the country.

   •   OIG reviewed 58 Fund Accountability Statements and found that MCAs are not reporting
       VAT transactions in their Fund Accountability Statements.
   •   OIG did not find any MCC guidance to MCAs regarding how to record, track, and report
       VAT in Fund Accountability Statements.




                                               5
       Recommendation No. 4: We recommend that the Millennium Challenge
       Corporation issue appropriate guidance to Millennium Challenge Accounts
       to develop standard policies and procedures to require value-added tax
       recording, transaction tracking, and reporting in their Fund Accountability
       Statements.


Scope and Methodology

This survey took place in Washington, DC, from March 1 through April 15, 2010, and focused on
MCC’s ability to follow up on or collect VAT from foreign governments that received MCC funds.
The audit team performed the following tasks to respond to the survey objective:

   •   Met with the Department of Compact Implementation and Administration & Finance
       officials,
   •   Reviewed MCC bilateral framework agreements with countries receiving Compact funds,
   •   Gained an understanding of overall MCC programs and operation in the context of the
       survey objective,
   •   Identified MCC’s progress or lack of progress in dealing with VAT issues,
   •   Reviewed MCC’s ongoing activities in relation to VAT issues in future compacts,
   •   Conducted telephone interviews with MCA auditors to gain an understanding of VAT-
       related processes in place at MCAs, and
   •   Attempted to identify the amount of taxes levied and reimbursed during FY 2009, but
       could not accomplish this task. The auditors of 10 countries provided partial information
       on VAT activity.




                                               6
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments to our draft survey report and the comments are
included in their entirety in Appendix 1 of this report. In its response, MCC agreed with
all four recommendations. However, in its concurrence MCC provided two comments on
our findings and considered part of those findings as misleading.

MCC disagreed with the OIG’s assertion that MCC could not determine the total amount
of VAT reimbursement that was owed to MCAs. MCC contends that they were able to
produce stated balances upon request at the time of the OIG’s survey. In support of
their contention they provided Exhibit 2 with their response indicating VAT balances by
country as of April 30, 2010 which is different than what the survey team was provided
at the time of survey. Additionally, information obtained by OIG from independent
auditors reported different balances of outstanding VAT and reimbursements. During its
survey OIG did not find any structured mechanism available to MCC to capture VAT
data for payments, reimbursements, and balances.

MCC also stated that OIG’s assertion that “MCAs are not reporting VAT transactions in
their fund accountability statements” is misleading. MCC provided Exhibit 1 that
included a list of fund accountability statements on which, it claimed, VAT was reported.
However, our review of the same reports did not find, with the exception of Madagascar,
VAT payments or reimbursements identified as a distinct and identifiable line item on
the fund accountability statements. Independent auditors of these audit reports
however, had identified VAT as questioned costs resulting in overstatement of
expenses. Including questionable VAT payments in a report is not equivalent to showing
VAT as a distinct and identifiable line item on the fund accountability statement.

MCC provided the following comments to the recommendations:

In response to Recommendation No. 1, MCC concurred with the recommendation but
believed that its exposure to uncollected VAT was minimal as evidenced by their Exhibit
2, which listed outstanding VAT balances by country as of April 30, 2010. We have
serious concern with the completeness and validity of this data. We consider that
management decision has been reached, but final action will not be reached until MCC
provides us with its enhanced policies and procedures for monitoring VAT effectively.

MCC agreed with Recommendation No. 2 and stated that information exists within the
MCAs accounting system for monitoring VAT. Our survey did not reveal any such
accounting system and we would like MCC to provide us further details of such accounting
systems. Until further information is received from MCC we consider that management
decision has not been reached. We however, would look forward to collaborating with
MCC to revise audit guidelines for MCAs to record VAT payments, reimbursements, and
balances.




                                               7
In response to Recommendations Nos. 3 and 4 MCC concurred with the recommendations.
MCC will inform MCAs of proposed changes in policies and procedures, revision of guidelines
and fund accountability statement. We consider that management decision has been reached
but final action will not be reached until MCC provides OIG with the final documentations of
proposed actions.




                                              8
                                                                                     APPENDIX I




DATE:          September 8, 2010

TO:            Alvin Brown, Assistant Inspector General
               Millennium Challenge Corporation

FROM:          Victoria B. Wassmer, Vice President
               Millennium Challenge Corporation
               Department of Administration and Finance

SUBJECT:      Management Response on the Survey of the Millennium Challenge Corporation's
Oversight of Value Added Taxes Due from Compact Countries, Report No. M-000-10-003-S.

This memo serves as MCC’s Management Response to the four recommendations contained in
the Survey of the Millennium Challenge Corporation's Oversight of Value Added Taxes Due
from Compact Countries, Report No. M-000-10-003-S In addition, MCC hereby provides
comments on Findings A and B.


Inspector General Finding A
MCC Did Not Have Adequate Oversight of VAT Process

   I. Management Comments on Audit Findings

   1. The audit survey found that MCC (1) did not have a process in place to monitor VAT
      payments and collections; (2) could not determine the total amount of VAT
      reimbursements that were owed to MCAs; and (3) did not issue formal guidance to
      MCAs to record, track, and report VAT transactions in their Fiscal Accountability
      Statements.

MCC believes the statement in the finding that MCC… “(2) could not determine the total
amount of VAT reimbursements that were owed to MCAs” is misleading. MCC was able to
produce stated balances upon request at the time of the Survey. Refer to the attached Exhibit 2
for the outstanding VAT as of April 30, 2010.




                                                9
Inspector General Finding B
MCAs Are Not Reporting VAT Transactions in Their Fund Accountability Statements

   2. The Compact Agreements require Accountable Entities to maintain records of all
      transactions related to MCC funds provided to the country.

   •   OIG reviewed 58 Fund Accountability Statements and found that MCAs are not reporting
       VAT transactions in their Fund Accountability Statements.
   •   OIG did not find any MCC guidance to MCAs regarding how to record, track, and report
       VAT in Fund Accountability Statements.

MCC believes the bullet point “OIG reviewed 58 Fund Accountability Statements and found that
MCAs are not reporting VAT transactions in their Fund Accountability Statements” is
misleading. This statement implies that VAT was not addressed in the Fund Accountability
Statement audit reports. On the contrary, it was frequently addressed as shown in attached
Exhibit 1.

   II. Management Response to the Audit Recommendations

Recommendation No. 1: We recommend that the Millennium Challenge Corporation
develop and implement a centralized system to monitor value-added tax and incorporate
it into its policies and procedures.

   MCC Management Response:
   MCC concurs with the recommendation. Based on the outstanding balance on Exhibit 2
   MCC believes that its exposure to uncollected VAT is minimal and that the corrective action
   plan detailed in our response to Recommendation No. 2 provides an appropriate vehicle to
   centrally monitor VAT. Although MCC’s policies and procedures comply with best
   practices for monitoring VAT in the international donor community, MCC proposes a further
   enhancement to its policies and procedures for VAT monitoring by establishing an
   acceptable threshold ceiling amount for outstanding VAT as reflected on the MCA’s audited
   Fund Accountability Statement (FAS). Should the VAT ceiling amount be exceeded, MCC
   will require that the MCA provide a corrective action plan to reduce the VAT to an
   acceptable level within a 60 day period. This revision to our monitoring system will be
   included in MCC’s Fiscal Accountability Plan as adopted by the MCAs by October 29, 2010.

Recommendation No. 2: We recommend that the Millennium Challenge Corporation establish a
system for collecting value-added tax data on payments, reimbursements, and outstanding
balances.

   MCC Management Response: MCC concurs with the recommendation. MCC believes
   that this information exists within the MCAs’ accounting system for monitoring VAT.
   However in order to ensure consistency in format, MCC proposes, in conjunction with the
   OIG, the development of a revised format for the Fund Accountability Statement (and Audit
   Guidelines) that includes a standard note and schedule identifying all VAT activities
   (payments, reimbursements, and outstanding balances) for the reporting period on a
   cumulative basis.
                                            10
   This revision to the Fund Accountability Statement reporting will align MCC with donor best
   practices and enhance MCC’s ability to provide oversight and monitoring of the various
   VAT processes in each country. The revision will also serve as a key internal control to
   ensure that MCC assistance is exempt from VAT required by the terms of the compacts. The
   target date for completion of the revisions to the FAS is November 30, 2010.

Recommendation No. 3: We recommend that the Millennium Challenge Corporation revise
guidance to Millennium Challenge Accounts to establish comprehensive policies and procedures
related to Millennium Challenge Accounts’ value-added tax transactions and establish internal
controls in accordance with best practices.

   MCC Management Response: MCC concurs with the recommendation. MCC has in place
   the Fiscal Accountability Plan, as well as relevant tax agreements procedures and regulations
   promulgated by the government where appropriate relating to VAT transactions and
   establishing internal controls. To further inform MCAs of changes to these policies and
   procedures, MCC will send a guidance letter to the MCAs informing them of the upcoming
   revisions to the FAS, as detailed in our response to Recommendations No. 1, 2 and 4 as well
   as instructions for revising its policies and procedures regarding VAT transactions. The
   target date for completion is October 29, 2010.

Recommendation No. 4: We recommend that the Millennium Challenge Corporation issue
appropriate guidance to Millennium Challenge Accounts to develop standard policies and
procedures to require value-added tax recording, transaction tracking, and reporting in their Fund
Accountability Statements.

   MCC Management Response: MCC concurs with the recommendation. As stated in our
   response to Audit Recommendation 2, MCC’s corrective action plan is to develop, in
   coordination with the OIG, a revised format for the Fund Accountability Statement (and
   Audit Guidelines) that includes a standard note and schedule identifying all value-added
   taxes (payments, reimbursements, and outstanding balances) for the reporting period and on a
   cumulative basis. As a result of this new format, MCAs will more accurately report VAT
   transactions within its FAS, and thus be required to modify their accounting systems
   (including its chart of accounts) to ensure the proper accumulation and reporting of VAT
   activities in its books and records. Per Recommendation 3, MCC will issue a guidance letter
   to the MCAs informing them of the upcoming revisions to the value-added tax recording,
   transaction tracking, and reporting in the Fund Accountability Statements. The target date
   for completion is October 29, 2010.




                                               11
Exhibit 1
Sampling of Fund Accountability Statements on which VAT was reported

MCA Country        VAT       Audit Period        Report     Report Date
                 Amount                         Number
Cape Verde        $1,687       10/17/05-        M-000-07-     1/11/07
                                6/30/06          002-N
Cape Verde        $3,000        7/1/06-         M-000-08-     4/25/08
                               12/31/06          008-N
Cape Verde        $1,300        1/1/07-         M-000-08-     7/28/08
                                6/30/07          015-N
Cape Verde        $1,310        7/1/07-         M-000-09-    12/23/08
                               12/31/07          009-N
Cape Verde        $3,549        1/1/08-         M-000-09-     5/12/09
                                6/30/08          016-N
Cape Verde         $980          7/1/08-        M-000-10-    11/23/09
                               12/31/08          003-N
Ghana             $3,581         1/1/08-        M-000-09-    10/29/08
                                6/30/08          002-N
Ghana             $3,829         7/1/08-        M-000-09-     9/10/09
                               12/31/08          023-N
Ghana             $6,328         1/1/09-        M-000-10-     3/31/10
                                6/30/09          010-N
Lesotho           $10,212       7/23/07-        M-000-09-     3/17/09
                                6/30/08          012-N
Lesotho           $22,310       7/1/08-         M-000-09-     6/23/09
                               12/31/08          017-N
Lesotho           $8,873         1/1/09-        M-000-10-     4/29/10
                                6/30/09          012-N
Madagascar       $355,840       7/21/05-        M-000-07-    12/21/06
                                6/30/06          001-N
Morocco          Internal       1/1/08-         M-000-10-     4/23/10
                 Control       12/31/08          011-N
Vanuatu           Non-          1/1/09-         M-000-10-     3/1/10
                Compliance      6/30/09          006-N




                                           12
Exhibit 2
Outstanding VAT Balances by Country as of April 30, 2010



Country                        Balance

Armenia                                 $0
Benin                                   $0
Burkina                                 $0
Cape Verde                            $4,010
El Salvador                             $0
Georgia                                 $0
Ghana                                 $51,397
Honduras                                $0
Lesotho                                $765
Mali                                   $523
Mongolia                                $0
Morocco                              $25,028
Mozambique                              $0
Namibia                              $284,609
Nicaragua                               $0
Tanzania                             $11,259
Vanuatu                               $2,527

TOTAL                          $     380,118
Average                        $      22,360

Note:

   1. This chart also indicates that the average outstanding VAT balance was slightly
      over $22,000 for all countries. If Namibia (where a relatively high balance is
      expected) were excluded from the analysis, the average of the remaining
      countries reduces to approximately $6,000. MCC feels that this level, while
      important to note and monitor, is not a high risk.

   2. Most MCAs have established robust systems utilizing tax-exemption certificates
      such that neither MCA nor its contractors pay VAT -the VAT balances are thus
      assessed at zero. In countries where analogous arrangements are not supported
      by host government legislative frameworks, MCA accounting systems are set up
      to monitor outstanding VAT balances and Fiscal Agents have established
      standard procedures for requesting and tracking reimbursements.



                                               13
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
